Memorandum from the Office of the Inspector General



September 14, 2006

John E. Long, Jr., WT 7B-K

FINAL REPORT – INSPECTION 2006-513I – REVIEW OF TVA’S SUCCESSION PLANNING



Attached is the subject final report for your review and action. Please advise us of your
planned actions in response to our findings within 60 days of the date of this report.

For your information, we are forwarding all final audit and inspection reports to two
Congressional committees in accordance with a requirement which applies to other
Inspectors General as well. In addition, we are considering whether this report and/or a
summary should be posted on the OIG Web page. Please advise us if you believe this
report contains any sensitive information which should be withheld. If we have not heard
from you within 20 calendar days of the date of this memorandum, we will assume you have
no objection to release of this report in its entirety.

If you have any questions, please contact Rick C. Underwood, Senior Auditor, at
(423) 751-3108 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections,
at (423) 751-7821. We appreciate the courtesy and cooperation received from your staff
during this review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RCU:SDB
Attachment
cc (Attachment):
      Peyton T. Hairston, Jr., WT 7C-K
      Tom D. Kilgore, WT 7B-K
      Richard W. Moore, ET 4C-K
      Michael A. Purcell, LP 5B-C
      Phillip L. Reynolds, LP 3A-C
      OIG File No. 2006-513I
                     Tennessee Valley Authority
                     Office of the Inspector General


Inspection Report



REVIEW OF TVA'S
SUCCESSION
PLANNING




Inspection Team                            2006-513I
Rick C. Underwood                  September 14, 2006
Heather R. Kulisek
Office of the Inspector General                                                        Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ............................................................... i

BACKGROUND .............................................................................. 1
   RECRUITMENT POLICY................................................................ 2

   INTEGRATED STAFFING PLAN, PRINCIPLE .............................. 2

   STRATEGIC TALENT MANAGEMENT, INTEGRATED
   STAFFING PRACTICE 1 ................................................................ 3

   STAFFING BENCHMARKS, INTEGRATED STAFFING
   PRACTICE 2 .................................................................................. 4

   WORKFORCE ANALYSIS, INTEGRATED STAFFING
   PRACTICE 3 ................................................................................... 4

OBJECTIVE, SCOPE, AND METHODOLOGY ....................... 4

OBSERVATIONS AND RECOMMENDATIONS ..................... 5
   THE STRATEGIC TALENT MANAGEMENT INITIATIVE ............... 5

   THE WORKFORCE PLANNING INITIATIVE ................................. 5

   KNOWLEDGE RETENTION INITIATIVE ....................................... 6
    Knowledge Loss Risk Assessment ........................................................ 6
    Approach to Capture Knowledge ........................................................... 7
    Monitoring and Evaluation...................................................................... 7

   THE TRAINING PIPELINE INITIATIVE .......................................... 9

   THE RECRUITING INITIATIVE ...................................................... 9

   BEST PRACTICES ....................................................................... 10

   RECOMMENDATIONS................................................................. 12




Inspection 2006-513I
Office of the Inspector General                                 Audit Report



EXECUTIVE SUMMARY
Challenges facing power utilities as a result of the aging workforce
include the loss of critical knowledge, the inability to find replacements
with utility-specific skills, and the lack of bench strength within the
organization. According to a survey by EnergyCentralJobs.com,
“Close to 80 percent of utility industry workers are older than 40 years
of age.”i Per documentation provided by Tennessee Valley Authority
(TVA) Human Resources (HR), much like the industry overall, the
average age of a TVA employee was 47 in 2005 and around 46 in
2006. In turn, the documentation states that one-third of TVA’s
workforce can retire in the next five years. This poses potential
problems for TVA with knowledge retention, the timing of
replacements, and ensuring adequate bench strength.

We conducted a review to determine what TVA has done to address
challenges arising from TVA’s aging workforce, retirements, and the
resulting knowledge loss. We found TVA has adopted an Integrated
Staffing Plan Principle, as well as several initiatives to support this
principle which address the challenges arising from TVA’s aging
workforce. These initiatives include (1) Strategic Talent Management;
(2) Work Force Planning; (3) Knowledge Retention; (4) Training
Pipeline; and (5) Recruiting. We also found that TVA’s succession
planning initiatives include many recognized best practices, and TVA
is a recognized best practice organization related to knowledge
retention. For example, an article written in the July 24, 2006, issue of
Fortune magazine addressing TVA’s knowledge retention initiatives
stated that (1) TVA has found a better way to pass on knowledge; and
(2) John Deere, Chevron, and the World Bank have adopted many of
TVA’s methods.

While TVA has taken actions to address the issues arising from an
aging workforce, the implementation of TVA Corporate HR initiatives
by the business units can be improved. For example:

•   The accuracy of self-reported retirement data could be improved.
•   No organization other than TVA Nuclear (TVAN) had provided
    knowledge retention plan information for high priority positions to
    HR, and the information provided to HR indicated TVAN was
    lacking in the development and implementation of knowledge
    retention plans for identified high-priority positions.




i
 EnergyBiz Magazine, January/February 2006, Metrics, page 75.
Inspection 2006-513I                                                 Page i
Office of the Inspector General                              Audit Report



•   The number of experienced hires still greatly outweighs the
    number of pipeline hires. One of the best practices identified
    during our review is for an organization “Being developmentally
    oriented rather than replacement oriented.”

We recommend the Executive Vice President, Administrative
Services:

•   Consider educating employees on the importance of self-reported
    retirement dates and how that information is used, along with
    providing on-going education on retirement benefits and planning
    from early in a TVA employee’s career;
•   Ensure complete implementation of the Knowledge Retention
    Initiative, which supports compliance with and the success of the
    Integrated Staffing Plan Principle; and
•   Emphasize the importance of pipeline hiring to move TVA more
    towards being a developmentally oriented business.




Inspection 2006-513I                                              Page ii
Office of the Inspector General                                                    Audit Report



BACKGROUND
Challenges facing power utilities as a result of the aging workforce
include the loss of critical knowledge and the inability to find
replacements with utility-specific skills. According to a survey by
EnergyCentralJobs.com, “Close to 80 percent of utility industry
workers are older than 40 years of age.” 1 Per the Center for the
Advancement of Process Technology at the College of the Mainland in
Texas, the average age of the current process or manufacturing
plants’ staff is 50 or over; and it is estimated that 40 percent will retire
in the next 10 years, which will create an additional demand for skilled
employees.2

As of March 31, 2006, Tennessee Valley Authority (TVA) had 12,624
employees. The 12,624 employees consisted of 12,349 permanent and
275 temporary employees. Much like the industry overall, according to
documentation provided by TVA Human Resources (HR), the average
age of a TVA employee was 47 in 2005 and around 46 in 2006. That
documentation further indicated that one-third of TVA’s workforce can
retire in the next five years. This poses potential problems for TVA with
knowledge retention, the timing of replacements, and ensuring
adequate bench strength. As stated by the American Public Power
Association, the most significant challenges created will be the loss of
knowledge due to retirements, the difficulty finding replacements, and
the lack of bench strength within the organization.3 An article written by
a senior manager of HR, published in EnergyBiz magazine, states that
since February 1998, 6,701 employees have left TVA, and 4,723 new
employees have been hired. TVA HR has worked to address the aging
workforce challenges through an integrated approach.

Several succession planning initiatives have been initiated by
Corporate HR, including (1) Strategic Talent Management (STM);
(2) Work Force Planning; (3) Knowledge Retention; (4) Training
Pipeline; and (5) Recruiting. These initiatives support the following
policy, principle, and practices which govern TVA’s succession
planning efforts:

•     Recruitment Policy, Employee Relations Manual Policy 21.



1
    EnergyBiz Magazine, January/February 2006, Metrics, page 75.
2
    “Re-thinking Hiring Strategies,” Energy Central Energy Pulse, www.energypulse.net,
    Ken Silverstein, Editor-in-Chief, EnergyBiz Insider, Energy Central, March 9, 2006, page 1.
3
    “Work Force Planning for Public Power Utilities: Ensuring Resources to Meet Projected
    Needs,” American Public Power Association, 2005, page 1.
Inspection 2006-513I                                                                    Page 1
Office of the Inspector General                                   Audit Report



•   Integrated Staffing Plan, Principle, TVA Principles and Practices
    (P&P).
•   STM, Integrated Staffing Practice 1, P&P.
•   Staffing Benchmarks, Integrated Staffing Practice 2, P&P.
•   Workforce Analysis, Integrated Staffing Practice 3, P&P.

RECRUITMENT POLICY
“This policy outlines all of TVA’s external recruitment programs,
processes, organizational responsibilities, and applicant processes.”
The policy recognizes that “It is TVA’s challenge to recruit, retain, and
reward a highly qualified, diverse workforce that has the skills to meet
current and future business needs. In support of this challenge, TVA recruits
external candidates for positions identified through the workforce planning
process and Recruitment Plan.” The policy states that each business
unit is responsible for identifying positions to be filled with external
applicants providing accurate position requirements, interviewing
candidates, and making candidate selections.

INTEGRATED STAFFING PLAN, PRINCIPLE
The Integrated Staffing Plan discusses key elements needed to have
an “integrated workforce planning process which links to organization
business plans.” The Integrated Staffing Plan states:

    Corporate Human Resources is responsible for the TVA-wide
    oversight, including:

         •   TVA-wide data analyses and identification of trends,
             significant skill gaps, and workforce issues.
         •   Providing tools to enable business unit managers to
             assess the workforce needs to support their business
             functions.
         •   Providing programs and policies which contribute to
             attracting and retaining a competitive workforce.
         •   Assessing and measuring the “value add” of initiatives,
             programs, and policies.

Business unit HR organizations partner with business unit managers
to strategically plan for future workforce needs, including:

• Understanding business requirements and potential impacts on
  workforce.


Inspection 2006-513I                                                   Page 2
Office of the Inspector General                                Audit Report



• Identifying strategies for developing and enhancing skills of the
  workforce based upon business requirements.
• Partnering with Corporate HR to ensure changing business unit
  needs are understood and addressed.

STRATEGIC TALENT MANAGEMENT, INTEGRATED
STAFFING PRACTICE 1
“This practice defines the leadership/succession planning process
which will be utilized to ensure that TVA can fill key organizational
positions with qualified internal candidates, in advance of actual need;
and to assist in managing diversity and workforce planning.” Among
other things, the process includes the following steps:

    (1) Establishing leadership planning boards;
    (2) Identifying key positions;
    (3) Establishing criteria for key positions;
    (4) Identifying potential candidates, assigning mentors and
        development plans to those candidates; and
    (5) Tracking/reviewing the candidates.

This practice defined roles for the Board of Directors/Chief Officers,
Leadership Planning Boards, Business Unit HR, and Corporate HR.

During the course of our inspection, this practice was updated and
renamed STM. The practice now requires the development of a STM
team in each major TVA organization that has responsibility for
process implementation. Among other things, the process states that:

•   Each TVA organization will inventory current talent in the areas of
    leadership capability, performance, and promotability.
•   Each organization will identify positions for inclusion in its
    succession plan and determine, “organizational benchstrength.”
•   Management and specialist employees will prepare individual
    development plans (IDP).
•   Each organization will develop a Workforce Action Plan to identify
    and address critical and strategic workforce issues.
•   Bi-annually TVA will convene a meeting of senior leaders to
    discuss its talent.



Inspection 2006-513I                                                Page 3
Office of the Inspector General                               Audit Report



STAFFING BENCHMARKS, INTEGRATED STAFFING
PRACTICE 2
This practice is designed to provide valuable comparison data “to
allow TVA organizations to compare its staffing levels with external
competitors and best of class organizations.” The practice requires
Corporate HR to analyze TVA-wide data and identify trends and
issues. Business unit HR representatives must (1) analyze
organization data and identify trends and issues and (2) assist
organization managers in obtaining staffing benchmark data.

WORKFORCE ANALYSIS, INTEGRATED STAFFING
PRACTICE 3

This practice “addresses attrition replacement in critical knowledge
areas and skills/abilities gaps which may occur as a result of process
improvements, technology advancements, and changing business
needs. Each organization will utilize the HR Data Warehouse
Workforce Planning module to analyze the current staffing, projected
attrition, and replacement needs.” The practice further defines key
roles of Corporate HR, business unit HR representatives, TVA
University, business unit managers, and the employee.


OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to determine what steps TVA has taken to address
challenges arising from TVA’s aging workforce, retirements, and
employee/knowledge retention as of April 2006. To achieve our
objective, we:

•   Performed internet and intranet searches to identify best practices
    in the area of succession planning.
•   Performed intranet searches to identify any policies, procedures,
    or practices TVA had in place addressing succession planning.
•   Interviewed HR personnel to identify actions taken by TVA to
    address the issues arising from TVA’s aging workforce.
•   Reviewed documentation provided by HR personnel documenting
    succession planning, workforce planning, and knowledge retention
    programs in place and information gathered.
•   Reviewed benchmarking analysis provided by HR comparing TVA
    staffing to comparable companies.

Inspection 2006-513I                                               Page 4
Office of the Inspector General                               Audit Report


This inspection was conducted in accordance with the “Quality
Standards for Inspections.”


OBSERVATIONS AND RECOMMENDATIONS
We found that TVA has developed several initiatives to address TVA
succession planning. However, we did identify some opportunities for
improvement.

THE STRATEGIC TALENT MANAGEMENT INITIATIVE

STM is a comprehensive process for identifying future leaders of TVA
and supported Integrated Staffing Practice 1 – STM. As part of the
STM process, key TVA Leadership Competencies were identified, and
management should assess talent using the identified competencies.
The Leadership Competencies are defined as (1) leadership,
(2) business orientation, (3) change orientation, (4) problem solving
and thinking, (5) emotion and motivation, (6) interpersonal relations
and communication style, and (7) understanding of self and others.
Implementation of STM began on June 23, 2005, with an executive
briefing and Business Council buy-in. STM actions have included
conducting program pilots (e.g., TVA Nuclear (TVAN), assessing
organization managers, identifying succession planning positions,
identifying replacement candidates, evaluating succession planning,
and preparing workforce action plans. One of the STM key
implementation steps calls for Leadership Offsite meetings to be held
twice per year to review organization talent and key succession
planning positions. According to documentation reviewed, these
meetings have been conducted.

THE WORKFORCE PLANNING INITIATIVE

This initiative also supported Leadership/Succession Planning as well as
Integrated Staffing Practice 2 – Staffing Benchmarks. It focuses on
timing of replacements, building a pipeline, and managing labor costs.
One of the key elements of workforce planning is projected retirement
information. TVA uses the “Just Ask” survey to identify when employees
expect to retire. Since its inception more than 80 percent of employees
have voluntarily provided their projected retirement dates to TVA. An
integrated staffing plan has been developed which includes this self-
reported employee retirement data. For TVA employees who do not
self-report a projected retirement date, a default retirement age of 56 has
been used for planning purposes.


Inspection 2006-513I                                               Page 5
Office of the Inspector General                                  Audit Report


While TVA has significantly increased the number of employees self-
reporting retirement data since it was first requested, the accuracy of
this data could be improved. For fiscal year 2005, HR data showed
that 64 percent of retiring employees retired prior to their reported or
projected retirement date.

Several factors were noted by HR as contributing to this problem
including (1) line-level employees having a level of discomfort with
how the data will be used by TVA management and (2) a lack of
knowledge of retirement programs and needs by employees.

KNOWLEDGE RETENTION INITIATIVE
TVA’s Knowledge Retention Initiative has received industry awards
and been identified as a best practice. This practice supports
Integrated Staffing Practice 1 – STM as well as Integrated Staffing
Practice 3 – Workforce Analysis. This initiative has three major action
items:

•   Conducting a knowledge loss risk assessment;
•   Determining the approach to capture knowledge; and
•   Monitoring and evaluating the approach to knowledge capture.

Knowledge Loss Risk Assessment
The knowledge loss risk assessments had been conducted for 2,600
employees as of April 2005. Data within the TVA workforce planning
database is used to conduct the knowledge risk assessment, and two
criticality factors are assigned to positions within TVA – the Retirement
Factor and Position Risk Factor.

•   The Retirement Factor is based on the projected retirement dates in
    the workforce planning system (either self-reported or the system
    default). Each position is assigned a retirement factor of 1 – 5 with 5
    being the most critical--an expected retirement date within the current
    or next fiscal year.
•   The Position Risk Factor is a number from 1 – 5 that is assigned
    based on the estimated difficulty or level of effort required to replace
    the position incumbents. These factors are assigned by the
    manager/supervisor with 5 again being the most critical--critical and
    unique knowledge and skills with the potential for significant reliability
    or safety impacts.




Inspection 2006-513I                                                  Page 6
Office of the Inspector General                                   Audit Report


The Retirement Factor and the Position Risk Factor are multiplied to
generate a Total Attrition Factor (TAF). The TAF is defined as the
estimate of the effort and urgency necessary to effectively manage the
attrition. Positions identified as high priority (having a TAF of 20 or
greater) indicate that immediate action is needed to address potential
knowledge loss. These positions require specific replacement action
plans with due dates.

The replacement plans should include details on the:

•   Method of replacement;
•   Knowledge management assessment;
•   Specific training requirements; and
•   On-the-job training/shadowing needs with the incumbent.

Approach to Capture Knowledge
Once positions are identified as high priority, the approach to capture
any critical knowledge is determined. The approach determination
involves conducting interviews to identify the potential knowledge loss
areas and assessing the consequences of the knowledge loss. The
potential losses are then prioritized and options to retain or mitigate the
loss are identified. HR data identified four major methods for retaining or
mitigating knowledge loss:

•   Codification of tasks performed.
•   Identification of alternative resources (e.g., contractors, rotational
    assignments, multi-skilling, cross-training, and retirees).
•   Re-engineering the process.
•   Education and training.

Monitoring and Evaluation
After determining the approach for knowledge retention, a Knowledge
Retention Plan is developed and implemented. This information is also
tracked with the workforce planning database. HR stated that through
their assessments thus far, TVA has found that less knowledge is at-risk
than previously thought; and the greatest risk is in specialized technical
positions and problem solving strategies.

TVA’s workforce planning system showed 41 high priority positions, as
of April 2006. Of the 41 high-priority positions, 23 were concentrated in
TVAN. The remaining 18 positions applied to River System Operations
and Environment (RSO&E), Fossil Power Group (FPG), or Customer
Service and Marketing (CS&M). (See Table 1.)
Inspection 2006-513I                                                   Page 7
Office of the Inspector General                                        Audit Report




           Critical Positions Identified by TVA Organizations



                                  CS&M, 4    FPG, 6

                                                         RSO&E, 8
                       TVAN, 23




                        FPG        RSO&E    TVAN      CS&M




                                                                    Table 1

We found that of the 41 positions identified as high priority, the only
organization that provided HR with data indicating the need for
knowledge retention plans and the progress in implementing those
plans was TVAN. None of the 18 positions identified as high priority
for CS&M, FPG, or RSO&E had any data provided to HR addressing
their knowledge retention progress. For those positions identified as
high priority in TVAN, we noted varying degrees of progress, as
shown in Table 2.




                                                                      Table 2
Inspection 2006-513I                                                          Page 8
Office of the Inspector General                                                     Audit Report



THE TRAINING PIPELINE INITIATIVE
The Training Pipeline Initiative supports the Employee Relations
Manual Policy 21 – Recruitment. In addition to the knowledge
retention plans, pipeline training4 and multi-skilling initiatives play a
role in knowledge transfer. According to HR data, 626 trainees were
in the pipeline training program as of April 2005. This represented
534 skilled craft employees5 and 92 engineers or technical personnel.

To assist in the knowledge transfer, additional initiatives have been
implemented that:

•     Increased entry-level hiring requirements. According to HR
      documentation, the increased hiring requirements have aided in
      reducing training programs from 4 to 2.5 years.
•     Use experienced craft and retirees as subject matter expert
      training instructors.
•     Cross-train incumbent employees (multi-skilling).
•     Use benchmarking to improve training programs (faster to work).

While these and other processes have been put in place to train
employees for higher-level jobs, our review of the HR data determined
that the number of experienced6 hires still greatly outweighs the
number of pipeline hires. For example, our review of HR data showed
that for fiscal year 2006, as of March 31, 2006, TVA had hired 114
pipeline hires and 279 experienced hires.

THE RECRUITING INITIATIVE

TVA’s current Recruitment Policy, adopted in February 2006,
recognizes that it is TVA’s challenge to recruit, retain, and reward a
highly-qualified, diverse workforce that has the skills to meet current
and future business needs. The policy states that TVA recruits
external candidates for positions identified through the workforce
planning process and Recruitment Plan to address this challenge.
TVA’s external recruiting focuses on college candidates, student
interns and co-ops, experienced/professional candidates, and trades
and labor candidates (training/apprenticeships and journey-level).

4
    Pipeline – Any position to be used as a replacement for a current position in the work force.
    This includes positions in formal craft training programs, college recruitment positions, and
    any position using on-the-job training, including progression programs for professionals.
5
    Craft training programs include maintenance technicians, instrument mechanics, plant
    operators, and linemen/groundmen/yard electricians.
6
    “Experienced hires” refers to TVA recruits from outside companies/agencies.
Inspection 2006-513I                                                                      Page 9
Office of the Inspector General                                                       Audit Report


Per the policy, recruiting managers and staff members are to develop
and maintain relationships with appropriate representatives of 2-year
and 4-year colleges and universities, labor unions, community
organizations, and professional societies for recruitment purposes.
Staffing and Recruiting is authorized to engage professional search
firms to assist in identifying candidates for management, executive,
specialized, or difficult-to-fill positions. Recruiting tools include:

•     TVA’s employment website
•     Industry-specific websites
•     College career fairs and special events
•     College career centers
•     Open houses
•     Advertisements in publications/newspapers
•     Presentations
•     Community contacts
•     Employee and union referrals

BEST PRACTICES

We reviewed several articles and websites to identify best practices for
succession planning. In the table below, we included those best
practices we saw that were consistently mentioned in the documentation
reviewed. Our comparison of the identified best practices to processes
that TVA has in place noted the following:

           Best Practices                        TVA Succession Planning Initiatives
        Characteristics of a                  Characteristics of TVA Initiatives include:
    succession planning system
             include:
    Non-bureaucratic,                TVA's initiatives are supported by a web-based database that
    uncomplicated processes          allows organizations to easily input and access data and
                                     reports without having to go through corporate HR.
    Consistent policies and          TVA has adopted agency-wide procedures:
    processes across organizations   • Principle – Integrated Staffing
                                         •   Practice 1 – STM
                                         •   Practice 2 – Staffing Benchmarks
                                         •   Practice 3 – Workforce Analysis
                                         •   Employment Policy Number 21 – Recruitment Policy

    Being developmentally oriented   HR has put process documentation in place holding the
    rather than replacement          individual employee, line HR, and organization/site
    oriented                         management responsible for development of IDPs. In addition,
                                     the STM initiative focuses on developing candidates for
                                     leadership roles. The Pipeline Training initiative also focuses
                                     on having TVA develop its own personnel rather than
                                     replacing open positions through external hires.




Inspection 2006-513I                                                                        Page 10
Office of the Inspector General                                                           Audit Report


 The ability to spot gaps in talent   Workforce planning identifies critical positions through senior
 and identify important positions     management review of positions based on (1) critical and
                                      unique knowledge and skills with the potential for significant
                                      reliability or safety impacts, and (2) projected retirement dates.
 Continual refinement and             TVA has performed some benchmarking. For example, TVAN
 adjustment of processes and          completed recent benchmarking in January 2006, HR
 procedures                           completed a self-assessment of their knowledge retention
                                      program in September 2004, and FPG completed a staffing
                                      survey for 2005.
     Succession Planning                  TVA initiatives addressing employee development
    Employee Development                                       include:
          includes:
 Developing potential through         TVA develops employees using the multi-skilled program.
 job assignments/work                 Documentation showed TVA cross-trains skilled craft
 experience/job rotation              personnel for multiple lines of work. Employees also have the
                                      potential for being identified as a dual role candidate when
                                      supervisors are absent.
 Developing potential through         HR has put process documentation in place which should hold
 mentoring/coaching                   line HR and organization/site management responsible for
                                      supplying a mentor/coach, as required, for candidates
                                      identified as having management and leadership potential.

 Web-based learning with              TVA has a robust web-based training site on its intranet as
 Computer-Based Technology to         well as offering regular courses to TVA employees through
 monitor educational activities       Employee Technical Training and Organizational
                                      Effectiveness. TVA uses the web-based system to monitor
                                      educational courses attended and web-based courses
                                      completed by each employee.
 IDP                                  HR has put process documentation in place holding the
                                      individual employee, line HR, and organization/site
                                      management responsible for development of IDP. In addition,
                                      the STM initiative focuses on developing candidates for
                                      leadership roles.
       Use of Technology in            TVA's technology use for succession planning includes:
       Succession Planning
         Systems should:
 Give managers access to              TVA's initiatives are supported by a web-based database that
 succession planning information      provides easy access to data and reports.
 Provide timely information and       The TVA Work Force Planning database is updated monthly.
 reduce the time necessary to
 manage the system
  Evaluation of Employees in                 TVA employee evaluation processes include:
   the Succession Planning
           System:
 Core set of competencies and         STM has established leadership competencies for TVA as
 behavior for simplicity              leadership, business orientation, change orientation, problem
                                      solving and thinking, emotion and motivation, interpersonal
                                      relations and communication style, and understanding of self
                                      and others.
 360-degree feedback                  Per HR personnel, 336 TVA employees have completed the
                                      360-degree feedback program. The majority of employees
                                      completing the program have been on the management and
                                      specialist schedule, including all members of the Business
                                      Council.




Inspection 2006-513I                                                                          Page 11
Office of the Inspector General                               Audit Report


As seen in the above table, TVA’s initiatives incorporate many identified
best practices. During our attempt to identify best practices, we noted
that TVA has regularly been identified as a best practice organization for
knowledge retention and has been recognized for its succession
planning efforts.

•   TVA was awarded “the prestigious 2003 Innovative Practice Award in
    the Large Company category” as sponsored by the Society for
    Human Resource Management, HRMagazine, and Automatic Data
    Processing, Inc.” for its knowledge retention initiative.
•   TVA has been identified in presentations by the American
    Productivity and Quality Center as a best practice organization for
    knowledge retention.
•   Numerous agencies and corporations have contacted TVA for
    information and advice on knowledge retention programs. In
    addition, TVA employees have been requested as speakers for other
    organizations.
•   A TVA employee has had an article published on TVA’s approach to
    succession planning in EnergyBiz magazine.
•   An article was published in Fortune magazine highlighting TVA’s
    knowledge retention strategies and listing companies which have
    adopted TVA’s methods.

RECOMMENDATIONS
We recommend the Executive Vice President, Administrative
Services:

•   Consider educating employees on the importance of self-reported
    retirement dates and how that information is used, along with
    providing ongoing education on retirement benefits and planning
    from early in a TVA employee’s career.
•   Ensure complete implementation of the Knowledge Retention
    Initiative which supports compliance with, and the success of, the
    Integrated Staffing Plan Principle.
•   Emphasize the importance of pipeline hiring to move TVA more
    towards being a developmentally oriented business.




Inspection 2006-513I                                             Page 12
